Audit Report 97-30A
WORKING CAPITAL FUND
ANNUAL FINANCIAL STATEMENT
FISCAL YEAR 1996
Audit Report 97-30A, (9/97)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT'S OVERVIEW
INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL
STATEMENTS
INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL
INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE
PRINCIPAL FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN NET POSITION
NOTES TO THE FINANCIAL STATEMENTS
SUPPLEMENTAL FINANCIAL AND MANAGEMENT INFORMATION
REVENUE AND WORKYEARS (FTE) BY WCF ACTIVITY
SUMMARY OF NON-OPERATING CHANGES
PERFORMANCE MEASUREMENTS
DATA PROCESSING SERVICES
FINANCIAL MANAGEMENT SYSTEMS
PERSONNEL SERVICES DRUG-FREE WORKPLACE
APPENDIX I - JUSTICE MANAGEMENT DIVISION COMMENTS ON THE REPORT
APPENDIX II - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
This audit report contains the Annual Financial Statement of the Working Capital Fund
(WCF) for the fiscal year ended September 30, 1996. The report includes the WCF
management's overview, principal financial statements and related notes, supplemental
financial and management information, and the independent auditor's reports on the
principal financial statements, internal control, and compliance with laws and
regulations. The preparation of the Annual Financial Statement is the responsibility of
the Justice Management Division (JMD). This audit was performed as part of the Department
of Justice's (DOJ) effort to implement the Government Management Reform Act of 1994
(GMRA), which requires an annual financial statement audit of the DOJ beginning with FY
1996. The results of the annual financial statement audit of the WCF as presented in this
report will be relied upon by Price Waterhouse LLP in its performance of the consolidated
financial statement audit of the DOJ, which will be issued as a separate report by the
Office of the Inspector General (OIG).
The OIG contracted with Brown & Company, Certified Public Accountants, to perform
the audits of the WCF's FY 1996 and FY 1995 financial statements. The audits were
conducted in accordance with generally accepted government auditing standards and Office
of Management and Budget Bulletin No. 93-06, "Audit Requirements for Federal
Financial Statements." The OIG performs an oversight role in the audit process and
ensures compliance with the GMRA by monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, and following up on findings
and management letter issues.
As part of the DOJ-wide audit effort, Price Waterhouse LLP performed a general controls
review of the Justice Data Centers, which process WCF's data. The results of this work
were considered by Brown & Company in performing its audit of the WCF. Additional work
was performed by Brown & Company at the WCF level, as considered necessary to complete
the audit.
Reporting Entity
The WCF is a revolving fund authorized to finance, on a break-even basis,
administrative services provided by the JMD to Offices, Boards, Divisions and Bureaus of
the DOJ and to other Federal agencies. These services are generally commercial functions,
such as data processing, publications, buildingservices, financial operations, personnel
services, telecommunications, property management, and space management.
The WCF is also authorized to receive transfers of unobligated balances of
appropriations from other DOJ components. These transfers may be used to fund the
acquisition of capital equipment, develop and implement law enforcement or litigation
related automated data processing systems, and improve and implement the DOJ's financial
management and payroll/personnel systems. The Congress must be notified of the DOJ's
intention to use these funds.
Audit Results
The audit resulted in an unqualified opinion on the principal financial statements. The
independent auditor's report on internal control identified one material weakness
concerning an unreconciled Treasury account, and its report on compliance with laws and
regulations did not identify any instances of material noncompliance. Other conditions
involving the internal control structure and its operations were noted by the independent
auditor and will be communicated, under separate letter, to management.
Brown & Company also reviewed management's process for evaluating and reporting on
internal controls and accounting systems as required by the Federal Managers' Financial
Integrity Act (FMFIA), and compared the agency's most recent FMFIA reports with the
evaluation it conducted of the WCF's internal control structure. The independent auditor
was not contracted to perform control testing sufficient to enable the auditor to express
an opinion on management's assertions about the effectiveness of the internal control
structure as a whole or compliance with laws and regulations. Accordingly, the independent
auditor did not express such opinions.
Financial and Other Operating Highlights
Total revenue for FY 1996 increased approximately 3 percent, to $543 million, while the
excess of revenue over expenses decreased approximately 50 percent, to $13.1 million. The
decrease was primarily due to significant increases in expenses related to Future
Compensation Benefits; Travel and Transportation; Communications, Rent and Utilities; and
Other Contractual Services.
During FY 1996, $115 million in unobligated balances were transferred into the WCF from
other DOJ appropriations and $99 million was transferred out. The amounts transferred out
included $65 million in rescissions, $26 million in authorized uses of transferred
capital, and a net $8 million in transfers to other Departmental appropriations.
APPENDIX II
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE THE REPORT
Recommendation Number:
Resolved. In order to close this recommendation, please provide a copy of the
updated procedures for the performance and documentation of reconciliations between the
TFS 6653 and the DMS General Ledger.
Resolved. In order to close this recommendation, please provide a copy of the
policy and procedure bulletin that assigns responsibility for identifying and reconciling
accounts and resolving any differences between the DMS General Ledger and Treasury.
#####